"Audit of Administrative Costs Claimed Under Part A of The Health Insurance for Aged and Disabled Program by CareFirst of Maryland, Inc. for the Period October 1, 1995 through September 30, 1999,"(A-03-01-00010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Part A of The Health Insurance for Aged and Disabled Program by CareFirst
of Maryland, Inc. for the Period October 1, 1995 through September 30, 1999," (A-03-01-00010)
February 15, 2002
Complete
Text of Report is available in PDF format (2.05 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report, prepared by the certified public accounting firm of Carmichael, Brasher, Tuvell & company, presents
the results of a review of Part A administrative costs claimed by CareFirst of Maryland, Inc. for the period October 1,
1995 through September 30, 1999 (Fiscal Years (FYs) 1996-1999).   The auditors questioned $225,302 of $32,105,337
claimed because the costs were either unallowable, excessive, or unsupported or applicable credits to the program were
understated.